RECEIVED

No.

:

DEC 1 7 70I9
ji

■ X

In The

Supreme Court of the United States

:

.........

::

:

:::

:

UNITED STATES
Respondents,

\

APPLICATION
TO EXTEND TIME TO PETITION FOR CERTTORI
from the Court of Appeals, Federal Circuit
2019-1458
:

Chris Jayc
Prose

PO Box 5015
Clinton, NJ 08809
cajtgokvnews.com

::

::

::

:

:
::
:::
x

:x

:
;

::

;

:^

:::

To the Honorable US Supreme Court Chief Justice Roberts:
I have requested an emergent stay ofjudgments in.the Third Circuit via Justice Neil Gorsucft in a
prior petition (18-1374). It was returned to me as not in the court’s jurisdiction afterthepethion
was denied. Rut it was received prior to the denial. The games never end.
Mqwthereis nowahmherpetitjonthatfsdueinte

case, ROttherfeisonly

ii:

For reasons that CafinOtrbe explained Justice

case

Alito did not consolidate the two matters arid require ortLy one petition. Now l am again playing
whatever game you (and your staff) are creating ad hoc to frustrate my rights. 1 his is the latest
in a series of games being implemented to farther oppress than that which has already been
inexplicable and illegal by an array Of rogue federal judges in aa array of cases.
This double appeal is lunacy (with a shearing now added to the mix). In fact, tHis.is judicial
waste at its finest brought to you by the federal judges of the US Court of Appeals, Third
Circuit. And as advised, ray rehearing of 18-1374 was denied, but ironically - the filing fee was
cashed theOTrid^iW^dWted, Many US Supreme Court Justtces actually sec my filings
or is this all a show?
Ttriw

thafthe Clerk is amply rejecting (and returning filings) and denymg matters
samereyiew ancl consideration as those documents filed by ECF by lawyers in this

court. Is this what you have directed9
Clearly, the timing of events and return of my: documentsfrepeatedly) show a patlcrii of
interference which has resultedin two petitions riTmine
applications manipulated (or not docketed at all). If the US Supreme Court is trying to show that

1

::

they can play games withthe citizens by its rulings, then you are succeeding, If you are trying to
show that this Court has any integrity, it is failing entirely
At present, I now need to file another petition to this Court front the US Court of Appeals for the
Federal Circuit, 2019-1458. With all the lunacy iottigpp.®ii an extension However, you
in1his matt9ras you
By law, 1 should not be in such a position to file a petition

hkoall the

iSiaot adpieiied

judgeUoren

Smith wanted to throw the United States a win and rigged my case into a dismissal ariieti:
pushe(j into an appeal (although nonrtinal) whCTe it was npt iemanded and rvow has a mandate
(October 3, 2019). The lies antiriggingnever ends with thejudges in;theFideral courts.
::

I know not what kind of circus these courts have become, but deafly tiiif are not coUrtSnotW
operating accordmgto an y semblance of law: Judges are
t heard and this is how they are Clearly their dockets, by lies and fraud, this obstruction of
wan

appellate court lied to lurthcr the district judge’s ties. When does it end?
As proof of this, sec

Judge a Williams ruling in die matter ofl9-cv-121 (Jayev. US AO Barr).

is (at the least) one judge in the country Who understand the««l
"jurisdiction” and the fact that judges cannot prescr

them, littit &

illegal dismissal as has been the case in so many of ray cases, including the one brcughl to the
US Court of liederal Claims that now requires a petition to tills court
But of courseifjudges^ere held:to accouhtfor thdr illegal rulings, I would not be here now.
The so-called “chilling effect” On suits against judges is clearly a farce. Without accountability,

2

:: H

the chilling effect is on the people living in feai or government actors who get away with
:

_

; "

"

anything and everything - because of judges aiding and abetting other judges :in this scheme of
seRseiVico.;

.......

In light of the i ncredibledepartures of normal judicial procedures in play, I need an extension Oft
this latest appeal (mandate) which was done absent the US Court of Appealsforthc Federal
Circuit’s lawful jurisdiction. I know you will not act to remedy these ites ott yiMcdSvfL AM
itfhopgti.alsopetition will serve no purpose and it will be denied due to tlie incredible
contempt you all have for the people in general; I want to file it for my own reasons. But l now
need additional time because I have another petition that needs to be filed since Justice Alito did
::

:

:

:

:

■

.

.

..

.

hot consolidate the two.
The waste is,incredible. You really should be
watch. Without question, all of this could have been avoided and all petitions that have been
filed avoided if any one judge followed the US Supreme Court directives II one judge just did
: asfrequifeiliinone of this rigging could have been accomplished by these crooks you call
honorable colleagues.

ii

:::

Thjs:%wta comes -of judges (and their staff) being free from any and all accountability which is
a gift other judges gave them absent the Constitution - a,self-serving gift which has never been
:
::
::
land never will bet approved or authorized bv the people.

Chris Ann Ja1

*

